<html>
<title> - AMERICA'S SECURITY ROLE IN THE SOUTH CHINA SEA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                    AMERICA'S SECURITY ROLE IN THE 
                            SOUTH CHINA SEA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2015

                               __________

                           Serial No. 114-77

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

00-000 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Patrick M. Cronin, Ph.D., senior advisor and senior director, 
  Asia-Pacific Security Program, Center for a New American 
  Security.......................................................     6
Andrew S. Erickson, Ph.D., associate professor, China Maritime 
  Studies Institute, U.S. Naval War College......................    15
Mira Rapp-Hooper, Ph.D., fellow, Asia Program, Director, Asia 
  Maritime Transparency Initiative, Center for Strategic & 
  International Studies..........................................    27
Michael D. Swaine, Ph.D., senior associate, Asia Program, 
  Carnegie Endowment for International Peace.....................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Patrick M. Cronin, Ph.D.: Prepared statement.....................     8
Andrew S. Erickson, Ph.D.: Prepared statement....................    17
Mira Rapp-Hooper, Ph.D.: Prepared statement......................    30
Michael D. Swaine, Ph.D.: Prepared statement.....................    43

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Matt Salmon, a Representative in Congress from the 
  State of Arizona, and chairman, Subcommittee on Asia and the 
  Pacific: Material submitted for the record.....................    68
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71

 
             AMERICA'S SECURITY ROLE IN THE SOUTH CHINA SEA

                              ----------                              


                        THURSDAY, JULY 23, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Scott 
Perry [acting chairman of the subcommittee] presiding.
    Mr. Sherman. Folks, we are about 25 minutes late, which is 
fine. The problem is that we have Secretary Kerry and Secretary 
Moniz briefing the Democrats on--I think there is something 
going on here that they are concerned about.
    And so I am just going to deliver what would be my opening 
remarks. If the gavel hasn't fallen, then these are unofficial 
random statements that I made for your entertainment before the 
hearing could begin. This is certainly not our first hearing on 
the South China Sea.
    We have got to take it seriously, and yet we shouldn't get 
carried away. And my fear is that we are making a mountain out 
a reef, just as not only China but I believe four other 
countries have already added dirt on top of these islets to 
make them bigger than God intended them to be.
    We should remember there is no oil under these islets, and 
if there is it is not ours. And we should resist the tendency 
of the Pentagon to try to reconfigure itself as an entity 
devoted chiefly to fighting China in the South China Sea. I 
already see that in their research and increasingly in their 
procurement.
    I think it is important that the Pentagon be focused on the 
conflict we do have, which is with worldwide Islamic extremist 
terrorism. Those who are--and there is a lot of reasons for 
people on all sides of this to hype its importance. One of the 
ways you hype the importance is you say that $5 trillion of 
trade goes through the South China Sea.
    Well, the vast majority of that is going into Chinese ports 
or coming out of Chinese ports, which means that China is 
threatening to interdict its own trade--a threat they are not 
making and that I wouldn't be taking seriously if they did.
    So, first, you have got to count how much trade is going 
into a Chinese port, then how much is coming out. Then you have 
got to be careful not to count trade coming out of a Japanese 
port as South China Sea or relevant ocean area transit, if it 
is going to a Chinese port. And when you are done with that, 
you realize that the amount of trade we are talking about is 
still significant. And we still have an interest in 
demonstrating to China that we believe in freedom of 
navigation.
    No one doubts America's right to the Hawaiian islands. It 
is undisputed. But the United States does not assert that we 
have a naval exclusion zone on one-third of the Pacific Ocean, 
namely that portion between San Francisco, or I should say Los 
Angeles, and Hawaii. So the Pentagon would like to see a worthy 
adversary.
    Every time our military has faced an asymmetrical, non-
uniformed enemy, it has been a terrible experience. Sometimes 
victorious, but always a terrible experience, from the 
Philippine insurrection about 120 years ago, right through to 
Fallujah. Every time we face a uniformed opponent, from the 
Spanish War right through the Cold War, and one might even say 
the initial part of the war against Saddam Hussein, it has been 
a heroic experience for our military. And so it is not 
surprising that they are focused on how to recreate a situation 
where their primary adversary is a uniformed state. But the 
real threats that we face are asymmetric, and they don't come 
from China.
    Many of my colleagues in this room have had to listen to 
all of my hawkish comments about our trade relationship with 
China, and now they have had to listen to my dovish comments 
about these--they are called islands, but really islets or 
reefs that are in dispute. I think we have to assert freedom of 
navigation, but we also have to just calm everybody down.
    And, finally, I would point out that none of the countries 
that claim these islets are willing to put the kind of money 
into defending them that they want us to. Japan continues to 
stick to 1 percent of its GDP. Our expenditure, as a percentage 
of GDP, is understated, because we don't include veterans 
benefits, but that is part of the compensation package of our 
soldiers and sailors.
    So we are spending far more of our treasure and risking our 
lives around the world, and I would hope that our friends in 
Asia would figure out a way to just lower the temperature in 
all of this.
    I yield back.
    Mr. Perry. The Chair thanks the ranking member.
    In the interest of time, it would be good order just to 
make sure that the subcommittee is or will come to order. And, 
at this time, the Chair will now recognize itself for an 
opening statement. And, as a reminder, without objection, the 
members of the subcommittee can present brief remarks if they 
choose to, or they can submit them for the record.
    Overlapping territorial claims to the South China Sea have 
been a source of international friction since 2009. And it is 
no secret that China's claim and actions in the region have 
been the most aggressive. No one would have guessed that 
submerged features, rocks, and tiny islets seen here--if we can 
get the photos up, please--seen here, would be a source of 
major tension that it is today.
    During previous hearing, Ranking Member Sherman has asked a 
good question. Why should these rocks and any resources that 
might be under them matter to the United States? It is true 
that these features are themselves insignificant, but the 
outcome of these disputes will decide questions much more 
important than who owns what number of ocean rocks and sand, 
especially if other countries are building airstrips and radar 
towers on them.
    The region is flush with trade routes, fishing areas, and 
untold potential natural and energy resources. Protecting the 
freedom of the seas for commerce and passage while also 
protecting smaller states and U.S. allies from being coerced is 
absolutely a U.S. priority.
    U.S. leadership in the South China Sea is sorely needed. We 
stand alone as a world power, and our ability to engage China 
on complex issues for which there are no easy solutions, yet 
our leadership is noticeably absent and inconsistent. Today we 
will look into how the United States can help keep the world's 
oceans free and open and how China's activity in the South 
China Sea affects our bilateral relationship.
    We cannot let Beijing unilaterally define new norms of 
behavior at the expense of regional stability and the 
principles and goals of global development and international 
law. China, with its infamous Nine-Dash Line, which is now 
shown on the screen, claims virtually the entirety of the South 
China Sea has been the most aggressive and notorious of all 
South China Sea claimants.
    While China's intentions remain deliberately unclear, its 
actions, including the construction of artificial islands, the 
apparent use of these features for military purposes, the 
placing of oil rigs in disputed waters, and the flooding of the 
region with military and civilian ships are clearly aimed at 
asserting itself as a maritime power, but inconsistent with 
international law and norms of behavior.
    While China has signaled that they would halt land 
reclamation, China will continue to construct facilities on the 
features. I hope to hear from our panel of experts as to what 
China might do with these facilities. Beijing's remarks about 
halting land reclamation were also timed to coincide with high-
level discussions, and experts have already discounted the 
sincerity of China's stated intentions.
    Besides superficial concessions, what else can the United 
States do to prevent China's monopoly on international waters? 
Other nations laying claim to disputed South China Sea 
territory, including Vietnam, the Philippines, Malaysia, and 
Brunei, some--that was a period at the end of that. Some 
claimants have also used questionable tactics to state claims 
to disputed territories. But while China may argue it is only 
playing catch-up to these smaller nations' history of territory 
grabs, the speed and scale of China's activities is 
unparalleled.
    Chinese aggression in the South China Sea threatens 
regional and global security and stability, as well as the 
peaceful international system of the rule of law and freedom of 
navigation and overflight.
    U.S. Pacific Fleet Commander Admiral Scott Swift recently 
expressed that American forces are well equipped and ready to 
respond to any contingency in the South China Sea. While our 
allies have requested U.S. support and assistance in the 
region, they may not be holding their breath. The Philippines 
has already proposed a 25 percent increase of its defense 
budget for 2016. Vietnam increased its defense budget by 9.6 
percent in 2014.
    With unprecedented increases in defense budgets within the 
region, is Southeast Asia facing an impending and widespread 
arms race? What role does the U.S. have in tempering this 
escalation? The Obama administration and leading experts have 
all echoed concerns about developments in the South China Sea, 
yet U.S. and regional responses have been ineffective in 
curtailing Chinese expansion. No one involved in these disputes 
wants a military conflict, but the United States must continue 
to protect and preserve the principle of freedom of the seas, 
while supporting a peaceful resolution of competing territorial 
claims based on international law.
    I remain concerned about activity in the South China Sea, 
how regional developments may undermine stability, and about 
the lack of a unified U.S. voice in assuring the freedom of the 
seas. We need a clear strategy to address the South China Sea. 
It is my hope that our panel will help to develop this 
framework. For our country to forego or complicate this 
responsibility is a failure of conscience, history, and 
national will.
    Again, members present will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
material for the record, subject to the length of the 
limitations in the rules.
    And, at this time, that concludes the Chairman's opening 
statement, and I will recognize other members for their opening 
statements. Mr. Bera, the gentleman from California.
    Mr. Bera. Yes. I thank the chairman. I am going to 
respectfully disagree with my colleague from California, Mr. 
Sherman, in the sense that I do think this is an incredibly 
serious, you know, issue that we need to take up and we have 
taken up both in this subcommittee as well as discussed in the 
full committee.
    You know, these are incredibly important trading routes and 
will become more important as, you know, we increase our trade 
and commerce within the Asia Pacific region. China's moves both 
in the East China Sea and Senkaku Islands, as well as, you 
know, their moves here in the South China Sea, do need to be 
addressed and need to be addressed in a way that makes China 
understand that there are normal rules of negotiation in terms 
of when there are disagreements like what we are seeing in the 
South China Sea, and those dispute resolution processes have to 
take these standards of normal dispute resolution.
    In addition, you know, my concern is, as they gain a 
foothold, as they build airfields, you know, as they move 
additional vessels into the region, it is going to be much more 
difficult to--you know, to dislodge this, and it does set a 
very bad precedent for a region. You know, I am very interested 
in hearing the testimony of the experts, what our options are.
    You know, nobody on this subcommittee believes that an 
armed resolution is the right way to go. You know, we firmly 
believe, you know, we should be able to resolve this 
diplomatically, but we should resolve this diplomatically under 
the normal rules of negotiation.
    In addition, the one thing that I do worry about is, as 
Vietnam, as the Philippines, as other nations that, you know, 
express some claims on these waters put more vessels in the 
water, more ships, the chance of an accidental incident--and we 
have seen some of the incidents between China and Vietnam--for 
an accidental incident to escalate becomes a real danger. And 
that is how we end up in an armed conflict, and that is 
something that we very much want to avoid.
    I think I have heard that the United States is continuing 
to disregard the fly zones, which I wholeheartedly accept. 
Again, you know, these are open zones for, you know, our planes 
to fly through, and they should continue to be open 
internationally recognized zones for both shipping and air 
travel.
    So, again, I am very interested in hearing the committee's 
testimony. I am certainly interested in hearing the witnesses' 
thoughts on various options, but I do think we have to speak as 
a strong, unified voice, and, you know, it is important for the 
United States to speak as still the sole superpower, as a 
superpower that has very important allies in the region. And as 
we start to set the rules of commerce for the Asia Pacific 
region, you know, setting those standards is going to be very 
important.
    So, again, I look forward to the testimony, and I will 
yield back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the gentlelady from New York, Ms. 
Meng.
    Ms. Meng. Thank you, Mr. Chairman, Ranking Member Sherman, 
and all our witnesses for being here today. The South China Sea 
is a place of great strategic importance for many countries, 
including the United States. Five-point-three trillion dollars 
in commerce passes through the South China Sea every year, and 
stability in the region is vital to continuing economic 
connections and U.S. security interests.
    Territorial disputes in the South China Sea test the 
stability of the region. The recent increase in maritime 
incidents is a concern, because with these incidents comes 
tension. It is important that the disputes be resolved 
peacefully. All parties involved should come to the table to 
negotiate a fair resolution to the conflict. The United States 
has taken a number of steps to ensure peace and stability in 
the region.
    Thank you, and I yield back.
    Mr. Perry. The Chair thanks the gentlewoman.
    Today, we are grateful to be joined by a panel of experts 
from the private sector who follow this issue closely. Dr. 
Patrick Cronin is a senior advisor and director of the Asia-
Pacific Security Program at the Center for a New American 
Security. Dr. Andrew Erickson is an associate professor at the 
U.S. Naval War College, where he is a founding member of the 
China Maritime Studies Institute.
    Dr. Mira Rapp-Hooper is a fellow in the Asia Program at the 
Center for Strategic and International Studies where she is 
director of the Asia Maritime Transparency Initiative. And Dr. 
Michael Swaine joins us from the Carnegie Endowment for 
International Peace where he is a senior associate in the Asia 
Program.
    Thank you all for joining us. You will see a series of 
lights in front of you, so we would hope, if you could, to 
confine your testimony as closely to 5 minutes as you can, and 
you will see the lights coming down. And also, when you speak, 
of course, push the button to talk. And then, when you are 
done, push the button, so that you don't continue to be 
recorded when you don't want to be.
    That having been said, we will now turn to Dr. Patrick 
Cronin for his testimony.

   STATEMENT OF PATRICK M. CRONIN, PH.D., SENIOR ADVISOR AND 
 SENIOR DIRECTOR, ASIA-PACIFIC SECURITY PROGRAM, CENTER FOR A 
                     NEW AMERICAN SECURITY

    Mr. Cronin. Mr. Chairman, Mr. Bera, thank you so much for 
the honor to testify on America's security role in the South 
China Sea. In the past several years, we have entered a period 
of intensified competition in the South China Sea. My view, 
maritime tensions are growing and will persist.
    We may not be comfortable with the volatility that that 
persistence brings, but it is going to be a fact of life, in my 
judgment. And I think we can manage this below the threshold of 
military conflict. It is certainly important for the U.S. 
interest to do so.
    But I think the reason the competition continues is largely 
because it is centered on China's reemergence as a major power, 
its capacity as a major power, and its desire to expand its 
influence over its neighbors and its adjacent waters in this 
century.
    Now, the South China Sea is mostly not about rocks, reefs, 
and resources. It is about rules and order, the big order 
questions here. My written testimony enumerates eight essential 
elements of a U.S. foreign policy to deal with the South China 
Sea. They emphasize our enduring principles of unimpeded access 
to the global commons and peaceful resolution of disputes. They 
also include investing in America's own comprehensive power. 
This is really about our game. What do we bring to the region? 
Especially through regional trade and development, but also by 
enhancing our diplomatic and legal instruments of power.
    The United States needs to deepen and broaden its 
diplomatic and practical support for the Association of 
Southeast Asian Nations, ASEAN. And we should bolster ASEAN-
centered institutions on four levels, not just one, but four 
levels, with ASEAN as a whole, with ASEAN claimant states, with 
individual ASEAN members, and with maritime allies and partners 
in and outside of ASEAN, including Australia, India, Japan, and 
the Republic of Korea.
    We should coalesce a maritime coalition of the willing to 
ensure that the South China Sea issues remain on the top of 
regional diplomacy. We can underscore rules and expectations as 
well as think through in advance a common response to perceived 
provocation such as a possible air defense identification zone. 
The United States should also support a regional transparency 
regime. I refer to not only the physical infrastructure for 
gathering information, but also the institutions to process it, 
and the political channels to share it, both within and between 
governments.
    At the broadest level, by supporting greater transparency 
of developments in the South China Sea, we can help the region 
arm itself with facts to deal with everything from search and 
rescue to humanitarian assistance and disaster relief, to the 
fortification of islands, to threatening deployments of 
vessels.
    Leveraging our relations with allies, like the Philippines 
and other like-minded states, the United States can build on 
this general information-sharing regime to create a higher 
fidelity common operating picture for both early warning and 
contingency response. The technical capacity to build such a 
regime already exist, but U.S. leadership will be needed to 
build the supporting political framework. Let us put the 
spotlight on these stabilizing actions, so that we can 
reinforce the diplomacy at high level, regional, and global 
gatherings.
    The South China Sea is one area that needs more 
congressional fact-finding delegations, including to China. The 
United States should seek to clarify types of behavior that 
would be objectionable and against which the United States 
would work with others to impose costs. For instance, we should 
consider opposing the seizure of any unoccupied feature by 
denying access to other claimants, sovereignty claims over 
features that are not islands, spurious military alert zones. 
And I have a longer list in my written testimony
    Finally, we should enumerate a menu of potential cost 
imposition policy options that transcend reputational and legal 
costs and make clear that bad behavior will incur a price. 
Congress should require the continuous development of such an 
options menu in a classified annex of future interagency 
regional strategism, but let me suggest just a few--multi-
national sea and air patrols could emulate recent U.S. P-8 
overflights to make an emphatic point about what is permitted 
under UNCLOS.
    If a country wants to build an artificial island for 
military purposes in disputed waters, and then suggests it 
might be used for civilian purposes such as humanitarian 
assistance, then during the next regional disaster we might 
test that proposition by landing a civilian aircraft on one of 
the newest runways.
    If China tries to prevent the resupply of BRP Sierra Madre 
at Ayungin Shoal, then the United States might not only offer 
to resupply that Philippine ship, but it could also consider 
deploying a few Marines on rotation as part of the crew's 
training detachment. These are pugnacious, but these would be 
in response to future bad behavior. These, and many other 
moves, are the kind of muscular punctuation points designed not 
to ignite conflict, but rather to clarify acceptable behavior 
and reinforce the kind of rule set the region should and can 
live by.
    We are looking for an inclusive rules-based system with 
China. In the absence of any substantial costs for bad 
behavior, however, China will be emboldened to carry on with 
its opportunistic probing for regional influence. We need an 
effective counterweight to keep China honest, safeguard access 
to the global commons for all, and uphold the rule of law.
    Thank you.
    [The prepared statement of Mr. Cronin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Perry. The Chair thanks Dr. Cronin for his testimony 
and now recognizes Dr. Erickson for his testimony.

 STATEMENT OF ANDREW S. ERICKSON, PH.D., ASSOCIATE PROFESSOR, 
    CHINA MARITIME STUDIES INSTITUTE, U.S. NAVAL WAR COLLEGE

    Mr. Erickson. Mr. Chairman, Mr. Bera, in 2014, China 
started developing land features in the Spratlys and Paracels, 
with scale and sophistication its neighbors simply can't match, 
even collectively over time. But most concerning is what China 
is constructing there--militarily relevant facilities, 
including two 3,000-meter runways capable of serving manifold 
military aircraft.
    No other South China Sea claimant enjoys even one runway of 
this caliber on the features it occupies. One logical 
application for China's current activities: Supporting a South 
China Sea air defense identification zone, or ADIZ, like the 
one Beijing announced over the East China Sea in November 2013.
    The way China announced its East China Sea ADIZ suggests 
that it is reserving the right to treat international airspace 
beyond 12 nautical miles as territorial airspace in important 
respects. My colleague Peter Dutton characterizes China's 
island-building and outfitting activities as a tipping point 
meriting U.S. response. Militarizing the newly constructed 
islands, he argues persuasively, will alter strategic stability 
and the regional balance of power.
    Recent activities exemplify broader concerns--that as it 
becomes increasingly powerful China will abandon previous 
restraint, bully smaller neighbors, threaten use of force to 
resolve disputes, and attempt to change--or else run roughshod 
over--important international norms that preserve peace in Asia 
and which underwrite the global system on which mutual 
prosperity depends.
    That is why the U.S. now needs to adjust thinking and 
policy to stabilize the situation and balance against the 
prospect of negative Chinese behavior and influence. Even as 
China advances, we cannot retreat. The South China Sea is a 
vital part of the global commons on which the international 
system depends. Many statistics have already been offered to 
support that very important point.
    We therefore cannot allow Beijing to carve out within these 
international waters and airspace a zone of exceptionalism in 
which its neighbors face bullying without recourse, and vital 
global rules and norms are subordinated to Beijing's parochial 
priorities. Instead, we must maintain the national will and 
force structure to continue to operate in, under, and over the 
South China Sea, East China Sea, and Yellow Sea, and to 
preserve them as peaceful parts of the global commons for all 
to use without fear.
    There, given China's growing power and our own sustained 
power and resolve, we must accept a zone of managed strategic 
friction and contestation. China's current leadership is 
clearly comfortable with a certain level of tension, and we 
must be, too. This includes accepting the fundamental reality 
that we won't roll back China's existing occupation of islands 
and other features, just as we won't accept China's rolling 
back of its neighbors' own occupation.
    Most fundamentally, the U.S. must preserve peace and a 
stable status quo in a vital yet vulnerable region that remains 
haunted by history. To this end, we must develop and maintain a 
force structure and a set of supporting policies and 
partnerships geared to ensuring access, despite Chinese 
development of counter-intervention capabilities.
    We must make particular effort to preserve the significant 
U.S. advantage in undersea warfare by emphasizing nuclear-
powered attack submarines and offensive naval mines. If we are 
not building at least two Virginia-class submarines per year, 
we are not being serious, and regional allies, partners, and 
China will see that clearly.
    We must also take a page from China's counter-intervention 
playbook and further prioritize anti-ship cruise missiles. 
Unless we close this very real missile gap, China is poised to 
outstick the U.S. Navy by 2020 by deploying greater quantities 
of missiles with greater ranges than those of the U.S. ship-
based systems able to defend against them.
    Let me be clear: The U.S. and China can, and will I 
believe, avoid war. Rather, this is about maintaining robust 
deterrence in peacetime and in any crises that might erupt. 
Specifically, we must deter Beijing from attempting to resolve 
island or maritime claims disputes with the use of force or 
even the threat of force.
    The aforementioned weapon systems, effectively deployed and 
combined with a broader strategy, can repeatedly convince 
China's leaders that they won't succeed in their objective if 
they attempt to use military force to seize additional features 
in waters around them, or to prevent U.S. forces from operating 
in international waters and airspace nearby.
    Thank you very much.
    [The prepared statement of Mr. Erickson follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Perry. Thank you, Dr. Erickson.
    Now turn to Dr. Rapp-Hooper for her testimony.

  STATEMENT OF MIRA RAPP-HOOPER, PH.D., FELLOW, ASIA PROGRAM, 
  DIRECTOR, ASIA MARITIME TRANSPARENCY INITIATIVE, CENTER FOR 
               STRATEGIC & INTERNATIONAL STUDIES

    Ms. Rapp-Hooper. Chairman Perry, Congressman Bera, I am 
honored to have this opportunity to discuss regional states' 
responses to China's recent activities in the South China Sea. 
My testimony today will summarize my written statement and will 
focus primarily on responses by countries that have sovereignty 
claims and occupy territory, including the Philippines, 
Vietnam, Malaysia, and Taiwan. I will argue that there are 
ample opportunities for the United States to advance its 
interest in the South China Sea in tandem with other regional 
states.
    As Ranking Member Sherman noted, land reclamation and 
construction did not begin with China's building efforts in 
2014. South China Sea claimants began to set up outposts in the 
Spratly Islands in the 1950s, and several have undertaken major 
island renovations since that time. The Philippines, Vietnam, 
Malaysia, and Taiwan all do have airstrips of their own on 
Spratly outposts, and all have stationed troops on these 
islands at some point in time.
    When these other claimants are compared to China, however, 
the size, scope, and speed of their building activities 
absolutely pales in comparison. To paraphrase Secretary of 
Defense Carter, China has gone farther and faster in its 
construction activities, and this first chart that you see up 
on the screen will help you visualize the amount of land that 
each country has reclaimed.
    By way of comparison, Taiwan has reclaimed approximately 5 
acres over 2 years, Malaysia reclaimed approximately 60 acres 
over 30 years, Vietnam 50 to 60 acres over 5 years, whereas 
China has reclaimed at least 2,000 acres over 1 year at seven 
different locations.
    Since China's widespread land reclamation activities have 
become known, other claimants have responded with some modest 
construction activities of their own. More significant, 
however, are the visible diplomatic and military shifts that 
have taken place in the region over the last 18 months.
    Claimant states have sought naval and Coast Guard 
capabilities with clear South China Sea applications. These 
include Coast Guard patrol vessels, transport ships, corvettes, 
landing crafts, anti-submarine warfare helicopters, submarines, 
and patrol aircraft. Claimant states have also commenced 
training exercises with new partner militaries and drills that 
are explicitly focused on defense in the maritime domain.
    In the past year, the Philippines, Vietnam, and Malaysia 
have all pursued new strategic partnerships in the region. Most 
obviously, an alliance is emerging between Manila and Hanoi, 
but claimants have all forged ties amongst themselves and also 
with India, Japan, and Australia. These patterns leave little 
doubt that other claimants hope to counteract China's 
assertiveness in the South China Sea, but this will be no easy 
feat.
    After two decades after annual double-digit increases in 
its defense spending, China's military budget is six times 
larger than Southeast Asia's, and its capabilities overwhelm 
those of other regional states. As this next chart 
demonstrates, China's Navy and Coast Guard outnumber those of 
all the other claimants when combined.
    Many regional states also see an interest in maintaining 
positive relationships with China. Several of the South China 
sea claimants are likely to participate in China's Maritime 
Silk Road Initiative. Washington cannot assume that opposing 
sovereignty claims will always beget strictly opposing policies 
and strategies.
    Regional states share many of the United States' South 
China Sea concerns, but they are neither unambivalent, nor 
monolithic in their opposition, nor do their worries 
necessarily translate into coordinated policy responses. 
Washington must, therefore, take these variegated inclinations 
into account as it advances its interests alongside those of 
regional partners.
    First, the United States should insist that all claimants 
refrain from any major physical changes or militarization of 
the territories they presently occupy. In recent weeks, China 
has turned to publicizing Vietnam's land reclamation and 
construction activities. And while these absolutely pale in 
comparison to Beijing's, this building still feeds China's 
narrative that it is playing a defense game of catch-up, and 
this gives it convenient talking points in domestic as well as 
international fora.
    The United States should also define a criteria for what 
constitutes militarization as opposed to civilian use of an 
island. And these photos you will see up on the screen give you 
some sense of the extent of Chinese land reclamation on both 
Fiery Cross and Mischief Reef on the left, compared to 
Vietnamese reclamation and additions to Sand Cay on the right.
    Second, the Pentagon's $425 million Southeast Asia 
Reassurance Fund may provide some much-needed support to the 
coast guards and navies of other South China Sea claimants. 
Partner capacity-building efforts, however, are long-term 
initiatives that will take years to bear fruit, and some states 
will have trouble absorbing assistance officiently and 
effectively. Washington should establish a mechanism to 
coordinate partner capacity-building efforts with Australia, 
Japan, and India, so that the support may be mutually 
reinforcing.
    Dr. Cronin already mentioned a number of ways the United 
States can work with ASEAN to share more information, so I will 
conclude my remarks today by emphasizing the importance of the 
United States collecting and publicizing data on freedom of 
navigation and overflight risks. Multiple countries, including 
the United States, have already been warned away from China's 
artificial islands, which are not entitled to national airspace 
or to territorial waters if they were not islands when 
construction began.
    These incidents should be well documented, shared amongst 
the relevant parties, and periodically publicized, because this 
data is crucial to any judgment about whether U.S. and regional 
states' interests are being imperiled by China's activities. By 
taking these steps, Washington can maximize regional buy-in for 
its policies and advance its South China Sea interests in 
tandem with other states. Multilateral approaches alone are 
unlikely to arrest China's incremental opportunism. They can, 
however, help to coalescence some much-needed regional 
consensus in the South China Sea.
    Thank you.
    [The prepared statement of Ms. Rapp-Hooper follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Mr. Perry. Thank you, Dr. Rapp-Hooper.
    We now recognize Dr. Swaine for his testimony.

 STATEMENT OF MICHAEL D. SWAINE, PH.D., SENIOR ASSOCIATE, ASIA 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Swaine. Thank you, Mr. Chairman. It is a pleasure to be 
invited to testify here today. Since I have only got 5 minutes, 
I will focus on what I think U.S. interests are in the South 
China Sea, and what I think the United States should do under 
the current situation there.
    In my view, the USG's message on the South China Sea has 
been badly garbled, making it seem as if Washington is opposed 
to any Chinese activities that involve an increase in presence 
or capability in the area with little serious reference to the 
actions of anyone else. There is definitely a dynamic going on 
here. It is not just China's behavior.
    The U.S. needs to focus like a laser on its two only really 
vital interests in the South China Sea that it should be 
prepared to act to support via words and action. First is 
freedom of navigation and concerns that China might eventually 
use its growing position, including land reclamation, to 
attempt to interdict the activities of the U.S. Navy in the 
open ocean.
    This is not about commercial obstruction. The Chinese have 
absolutely no interest in obstructing commercial transit in the 
South China Sea and emphasizing this issue is distracting and 
doesn't serve the interests of the United States. This is about 
the access of the U.S. Navy and other military navies into the 
area.
    The second issue and the second interest of the United 
States is a possible use of force against other claimants that 
can produce a much greater level of tension and push the region 
toward an emphasis on security over economic growth. Now, both 
of these interests involve potential violations over disputes 
regarding international law and process, including three 
issues, whether manmade islands can be used to create 12 
nautical mile territorial seas and EEZs, whether a coastal 
state with EEZs can demand that foreign militaries notify them 
before transiting or engaging in ISR activities, and of course 
the resort to force over disputed territories.
    Now, these issues have existed for a long time in U.S.-
China relations. The U.S. and China have somewhat different 
views on some of these issues, but the South China Sea problem, 
combined with China's growing capacity to influence the area, 
raises their salience. The reason for concern over the form 
issue, freedom of navigation, derives primarily from China's 
lack of clarity in defining the nature of its maritime claims 
within the Nine-Dash Line and its rejection of the U.S. 
position on EEZs, on the use of foreign militaries in EEZs.
    The reason for concern over the latter interest, which is a 
use of force derived from the fact that: A) China has employed 
force in the past to eject other claimants from disputed South 
China Sea territory; and b) China and others seem to offer 
little strong support at present for adopting a binding code of 
conduct in the South China Sea. Not just China, but ASEAN 
countries as well are having real trouble bringing that about.
    So what should the United States do? In the remaining time, 
let me just tick off seven points. The first, I think the U.S. 
Government needs to significantly tone down its repeated very 
public protests regarding land reclamation, and focus instead 
on expressing the reasons why it is concerned about the two 
interests I enumerated above.
    Land reclamation in itself is meaningless. Virtually every 
claimant has engaged in it, and to say that China is doing more 
of it means very little. Moreover, Washington can't induce 
Beijing to stop it, if it were to start again, absent a larger 
stabilization process to which all parties agree. The issue is 
not the reclamation; the issue is what China is doing with the 
land that it is reclaiming.
    Second, Washington should stop emphasizing military 
deterrence methods to prevent changes in the status quo, thus 
freezing a situation into one of constant potential conflict, 
and start focusing instead on the resolution of territorial 
disputes through negotiations between the claimants designed to 
clarify the nature of claims, first of all.
    All the different claimants have different claims, and they 
are having agreement on what those claims consist of. This 
should be followed by the application of UNCLOS principles to 
sort out the territorial and EEZ implications of the claims, 
perhaps using something like a South China Sea Council modeled 
after the Arctic Council, to try and disentangle these claims.
    Third, at the same time, Washington also needs to make it 
clear privately to Beijing that its continued failure to enter 
into such talks on these issues, and to clarify the nature of 
its claims to waters within the Nine-Dash Line, combined with 
its growing presence and capabilities in the area, will 
increasingly cause the U.S. and other states to draw worst-case 
conclusions and act accordingly to hedge against such outcomes.
    So the U.S. would need to maintain its own capacity and the 
capacity of others to counter possible future attempts by 
Beijing to declare a de facto exclusionary zone, or zones in 
the area, or to employ force possibly against an ally such as 
the Philippines.
    Washington should make it clear, fourth, that such hedging 
would require a significant improvement in U.S. defense 
relations in presence with Manila, as well as Hanoi and 
Malaysia. But this augmented activity should be made contingent 
on China clarifying its claims and entering into negotiated 
codes of conduct with significant progress with the other 
claimants.
    Beijing must also clearly affirm, in my view, through its 
words and actions, that there is no military solution to these 
disputes and that we will never seek to dislodge rivals 
forcefully from occupied areas. Washington should make it clear 
that if China undertakes such actions and pledges, the U.S. 
would suspend the above hedging activities.
    Fifth and sixth, regarding negotiations, Washington should 
stop opposing bilateral talks between claimants, including 
China-Vietnam, China-Philippines, et cetera, and try to broker 
bilateral settlements between Vietnam and the Philippines and 
Vietnam and Malaysia, so as to reduce the differences among the 
Southeast Asian claimants at the bilateral level with China. 
That would give them more leverage in their dealings with 
China. The U.S. needs to really support that process.
    Sixth, in order to reduce tensions and improve the 
environment for negotiations, Washington should work behind the 
scenes to organize an effort to promote the joint exploration 
of seabed resources without prejudice to sovereignty, as has 
already been done by several bilateral states in the region.
    And then, finally, while Japan's efforts to improve the 
capability of Coast Guard units of our allies and friends in 
Southeast Asia is welcomed, Washington should not encourage the 
Japanese self-defense force to join the U.S. in patrolling the 
South China Sea. Having the joint self-defense force in the 
South China Sea where Japan has no territorial claims, and its 
security and freedom of navigation are not threatened, would 
intensify the emerging security dilemma between the U.S.-Japan 
alliance and China and promote instability.
    Thank you very much.
    [The prepared statement of Mr. Swaine follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Perry. All right. Thank you, ladies and gentlemen, for 
your testimony.
    I will begin with questions. And, let me see, I think I am 
going to go--I think I will actually start with you, Dr. 
Swaine. And some of this is going to be--quite honestly, I 
think you have gone through because, you know, you are here to 
kind of describe the situation but also offer some remedy that 
each of you have as I have listened and taken notes.
    But if you could, some of you say, you know, ``Congress 
needs to do this.'' And we can get into the whys and the why 
nots, but I think the administration also bears some 
responsibility to do some things as well. So if you could, 
maybe codify like your top three things, right, and so we can--
I would hope that this subcommittee would be instrumental in 
forming legislation to further our efforts and our interests in 
that regard.
    So with that, in light of China's aggressive land 
reclamation over the past 18 months, many argue that the United 
States should support its allies and partners in the region 
through economic and military assistance. Others say that the 
Southeast Asia nations must take ownership of their own ongoing 
disputes with China.
    So the question is: How should the United States navigate 
the correct balance between supporting our partner yet reducing 
risks of dependence and overreliance on the United States? Dr. 
Swaine.
    Mr. Swaine. Well, as I mentioned in my remarks, I think--I 
mean, it is a difficult challenge to strike this balance 
correctly, but I think the balance needs to be placed on 
Chinese actions and expectations of Chinese behavior and what 
the United States is prepared to do if there isn't a 
clarification of the Chinese position.
    As I said in my testimony, I don't think the United States 
should preemptively begin building up the capabilities of other 
countries in the area, regardless virtually of what China is 
doing, as a kind of insurance policy.
    Mr. Perry. Okay.
    Mr. Swaine. I think it needs to link what it is going to do 
in that regard of any significance with certain expectations 
about China's clarification of its behavior.
    Mr. Perry. Dr. Rapp-Hooper.
    Ms. Rapp-Hooper. Thank you, sir. I think it is an excellent 
question, but I would just add on and clarify the fact that 
risks can exist on both sides of the ledger. So when we are 
considering the prospect of giving additional aid to partners 
in Southeast Asia--for example, the Philippines--to build up 
their naval and coast guard capabilities, we are envisioning a 
process that will take certainly years to bear fruit, as I 
mentioned in my testimony.
    But by improving the Philippines' Coast Guard capability, 
we improve the ability of the Philippines to engage in these 
issues by itself and----
    Mr. Perry. So you are not advocating for a mutually 
exclusive kind of policy where we would engage the Philippines 
in that regard at the disregard of China. I would assume you 
are talking about both simultaneously.
    Ms. Rapp-Hooper. Absolutely. And it is worth noting that 
because the United States of course does have a treaty 
guarantee to the Philippines that if the Philippines, with its 
very modest naval and coast guard capability were to be pulled 
into conflict, this engages U.S. commitments and credibility. 
So there is some U.S. interest in considering the capabilities 
of the Southeast Asian partners.
    Mr. Perry. Dr. Erickson.
    Mr. Erickson. I want to echo Dr. Rapp-Hooper's 
recommendations regarding building partner capacity. That is 
extremely important. I also fully believe that our deterrence 
relationship with China is both manageable and important, and 
we need to maintain it by consistently funding and keeping on 
track the weapon systems that I mentioned in my testimony and 
that I am happy to elaborate on further.
    The two other things I would recommend very strongly are to 
continue to pursue access through our freedom of navigation 
operations pursued proportionately in accordance with 
international law. So based on what specific features enjoy on 
based on widely recognized international legal principles. That 
is how we should operate close to those features, regardless of 
what China says, regardless of what China does. That is 
international law.
    Mr. Perry. So if I may interject at this moment, have we 
attempted that? And have we been stopped or thwarted in that?
    Mr. Erickson. To the best of my knowledge--and my research 
involves solely unclassified sources, so I recommend getting 
full briefings on all of this--I think we have succeeded thus 
far in our freedom of navigation operations. I think it was 
valuable to have that publicized on CNN, and I believe what was 
publicized was an example of something that we do frequently in 
international waters and airspace around the world, and that we 
should continue to do.
    If I may, Mr. Chairman, let me emphasize one other very 
strong policy recommendation that I think is extremely 
important. My colleagues here have emphasized the importance of 
international law access, freedom of navigation, and to me this 
is part of supporting the larger system that we have all 
described here, and that I believe that you and Mr. Bera have 
also rightly emphasized in terms of this system that we need to 
support.
    And we need to support it both with our power and our 
example, and that is why I think it is critically important 
that we join 166 other nations in finally ratifying the U.N. 
Convention on the Law of the Sea, to take that excuse off the 
table that China has to bludgeon us with even though in a very 
nuanced and sophisticated fashion we adhere to customary 
international law.
    And, in closing, let me just emphasize, this is not 
something that you have to take from me. I far more recommend 
that you listen to this recommendation from the current 
President, Secretary of State, Secretary of Defense, Chairman 
of the Joint Chiefs of Staff, Heads of the U.S. Maritime 
Services--Navy, Marine Corps, Coast Guard--and all of their 
living predecessors, from Republican and Democratic 
administrations alike. So please allow me to underscore that 
point.
    Thank you.
    Mr. Perry. Thank you. I appreciate it.
    Dr. Cronin.
    Mr. Cronin. Well, Mr. Chairman, to reiterate my remarks, we 
need to leverage and build our comprehensive power, 
economically in terms of new development initiatives to show 
that we bring solutions to the region that really matter. 
Politically, we need to be more engaged. I talked about 
engaging ASEAN on four different levels. We need to build our 
diplomatic and our legal means.
    But we have to also leverage our power. If we are going to 
shape this region, which is being shaped every day by China's 
rise and China's opportunism, we are going to have to leverage 
our power. And we need to do that, including on the military 
side, by two basic types of building partnership capacity.
    One of them is just sharing information, transparency, what 
Dr. Rapp-Hooper does for a living every day, sharing the facts 
and getting them out there as we saw in these pictures, but 
also we need to build partnership capacity, not because this 
antagonizes China but because a minimal credible deterrent in 
defense goes a long way toward raising the bar toward 
aggression and toward assertiveness, unilaterally changing the 
facts on the ground. So we need to do that.
    We also, though--and one recommendation I had for the 
administration, but really for Congress to basically insist, 
was go ahead and ask for a comprehensive interagency approach 
to, how do you impose costs on bad behavior? And I do believe 
the administration needs to be more clear about what exactly 
constitutes the kind of unacceptable behavior, because I do 
agree with Dr. Swaine we have been too general about this 
issue.
    We do need to be clear about what exactly--let us narrow 
down the set of issues that we think basically violate UNCLOS 
and international law and the rules, as well as the declaration 
of conduct that ASEAN and China agreed to in 2002, and what is 
really just part of growing, what is just part of the 
development of the region. We do need to narrow down that set, 
because we don't object to everything.
    Just the opposite. Effective cooperation with China is very 
important. We need to insist on qualitative improvement in the 
relations--effective MOUs on avoiding incidents at sea and in 
the air, insisting that the summit meeting include a very 
serious discussion about intentions in the South China Sea.
    Mr. Perry. Thank you to the panel.
    At this point, I will recognize Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    You know, just listening to the witnesses, we all have the 
same goal, which is de-escalate tensions and the real goal of 
avoiding military confrontation, which is not the goal here.
    You know, if I contrast it, just thinking about what--
China's unilateral moves and the East China Sea expanding their 
air defense identification zone, and what our response, the 
U.S. along with Japan, in not recognizing this and actually, 
you know, conducting preplanned operations over that air. That 
was a proportionately strong response, that, you know, in many 
ways while the tension still exists, the tensions in the South 
China Sea seem very much more acute.
    I agree with Dr. Cronin that we have to operate from a 
position of strength in the United States, you know, and that 
is not, you know, with our military, but it is trying to engage 
these rules of maritime law and coming up with rules of 
maritime law, so there are mechanisms of dispute resolution.
    It is also empowering I think, again, as each of you 
mentioned, and I think specifically Dr. Cronin, empowering 
China and the 10 ASEAN nations to come to terms with what these 
rules look like, and come to terms with, you know, there will 
continually be disputes that arise over maritime territories. 
But we have to have mechanisms by which to de-escalate and 
resolve these.
    You know, maybe starting with Dr. Cronin, if you want to 
talk to what it would take to get China and the ASEAN nations 
to agree to what these maritime rules are and what our role 
could be to continue pushing this forward.
    Mr. Cronin. Nobody I know who is involved in looking at 
this prolonged code of conduct being negotiated between China 
and the 10 ASEAN states--it has now dragged on since the 2002 
declaration of conduct of the parties of the South China Sea--
believes that this is going anywhere quickly. Even the Chinese 
dismissed the idea that this could be readily resolved.
    We need to work on multiple tracks. I don't think we need 
to wait for China. We can encourage the claimant states. We can 
encourage ASEAN. We can encourage the claimant states and parts 
of ASEAN, plus outside countries like India, Australia, and 
Japan, to go ahead and say, ``This is a voluntary code of 
conduct.'' These are basically the ways of behavior that we 
will expect, the upholding of UNCLOS, essentially the 
principles--and I have enumerated them in my full written 
testimony, 12 different points of law.
    It is not just what Dr. Swaine; there are points of 
baseline law. There are lots of points of law that are being 
run roughshod over, as Dr. Erickson said, that we need to help 
reinforce. And I think we can agree among a key coalition of 
countries, starting with the claimant states, and we have been 
pushing and helping and facilitating. We can provide more 
facilitation, by the way.
    This is a foreign affairs issue, legal, political 
facilitation and help to not only allies like the Philippines 
but partners like Vietnam, working with Malaysia, Brunei, the 
four claimant states of ASEAN, in terms of helping them to 
think through how to come to terms with the rule of law.
    Mr. Bera. And is it your sense that if we were to engage in 
let us say a voluntary code of conduct, and invite the claimant 
states to engage, would most of those be willing to participate 
in this conversation, outside of China?
    Mr. Cronin. Well, we know that the Philippines and Vietnam 
are at the leading edge of this concern and interest. They are 
both interested, and I think there is an opportunity there. I 
think Malaysia is extremely interested, but they have always 
played it very carefully because they have the largest trading 
relationship of any ASEAN country with China. Mixed with that, 
they have their own political turmoil going on at the moment.
    Brunei will essentially probably follow Malaysia. So I 
think there is an opening there. I think we can make this 
happen.
    Mr. Bera. And a goal of this is not to be anti-China. A 
goal of this is to establish norms of trade, norms of maritime 
law, norms of airspace law.
    Mr. Cronin. Yes, sir.
    Mr. Bera. Again, from my perspective, it is not to be anti-
China. It is to establish these norms of commerce.
    Mr. Cronin. Mr. Bera, I think you are exactly right. That 
is exactly what we want. We want rules that we can all live by. 
These are rules, after all, that China has thrived by in many 
ways since opening up at the end of the 1970s. We want to 
establish those rules and adapt them and evolve them for all. 
We are not trying to be unfair, and we have to be very careful 
to be fair, but we do want rules we can all live by.
    Mr. Bera. And if these--and maybe Dr. Erickson or Dr. Rapp-
Hooper, if these voluntary conversations are moving forward and 
the ASEAN nations are participating, is your thought that China 
eventually would, you know, join this conversation? Whoever 
wants to take that.
    Mr. Erickson. That's an excellent question. I think the 
conversation can be complex in some ways in terms of how China 
will participate. But what we really need here is for everyone 
to live by the same rules, regardless of what conversation they 
have. These rules and norms are not a mystery. They already 
exist.
    What we need to do is make sure that they are enforced and 
that everyone has the confidence and the security that this is 
how the system works. And that is why our power and example can 
help, including through partnership building capacity. These 
are sovereign states, some allies, which have a fundamental 
right to their own military and paramilitary, coast guard 
capabilities.
    We do not want to encourage the creation of a world in 
which only big countries get to pursue those things, and the 
small ones just have to cower and accept whatever comes. That 
is not the world we want to see, nor is it the world we have to 
accept.
    Mr. Bera. And we are in the final stages of negotiating a 
very significant trade deal with many of these claimant 
nations. It would seem to me that part of this trade deal, as 
we set the rules of commerce in the Asian Pacific, would 
provide us an opportunity, an opening by which to also address 
some of these. Would that be an accurate, you know----
    Mr. Erickson. Just allow me to quickly say I could not 
agree more. TPA and TPP are a critical, constructive, mutually 
profitable part of this. And I think that without productively 
pursuing those avenues we simply can't have a multi-faceted 
Asia Pacific policy and presence that underwrites all of these 
other interests that we have outlined today. I couldn't agree 
more strongly.
    Ms. Rapp-Hooper. Just to tack on to Dr. Erickson's comment, 
many of our friends and partners in the region see TPP as a 
national security issue. They see it not only as a trade deal 
but as a sign of the U.S.'s commitment to the region, an 
enduring commitment to the region. Even countries that are not 
negotiating partners in this round of TPP are urging us to pass 
this deal, because they do see it as much more than just a 
trade deal itself.
    Mr. Swaine. If I could just comment on the issue of working 
with the other countries in the region, as I said in my 
testimony, I think it is very important for the United States 
to really begin focusing more on the reasons why the ASEAN 
states themselves have not been able to really achieve much in 
the way of a consensus in how they look at the problem of the 
South China Sea.
    I mean, some people would tell you that the main obstacle 
to a code of conduct is not china. It is the fact that the 
Southeast Asian states themselves have no agreement among 
themselves. Vietnam and Malaysia, Vietnam and the Philippines, 
they have enormous disputes about what their claims consist of, 
what a code of conduct should look like, all of those issues.
    So on that basis, then, it is almost impossible to have a 
collaborative, as Hillary Clinton said at one time, approach to 
dealing with this issue. That is not going to happen. Unless 
the Southeast Asian countries themselves gain more agreement 
about how this issue--what the meaning of this issue is and how 
to proceed with it, you are not going to see much in the way of 
coordinated action toward the Chinese, and I would dare say you 
are not going to see a whole lot of movement on the part of the 
Chinese. So I think that sort of emphasis and the degree to 
which the United States can facilitate it is important.
    Now, on the other hand, the United States needs to be aware 
of the fact that the more it becomes deeply engaged and 
involved in the efforts in a high visibility way the more 
difficult it is going to be to achieve an objective. And the 
reason for that is because Southeast Asian states on their side 
look to the United States to do a lot of the heavy lifting. And 
that takes the burden off of them, so they don't have to be 
quite as responsible in moving forward and making certain 
concessions, because they think the United States might be 
backing them.
    Secondly, it makes the Chinese more defensive, because they 
think, ah, the United States is really creating all of this 
behind the scenes, or in front, and that is in their view the 
primary obstacle to reaching any kind of understanding is 
because of U.S. involvement in the issue.
    Now, you don't have to accept their Chinese argument by any 
means. I am just telling you the dynamic, though, is such that 
calculations on both sides, Chinese and Southeast Asian, are 
such that U.S. involvement could not--would not necessarily in 
every case be a facilitator. And anybody who is involved in 
this has to be very sensitive to that.
    Mr. Bera. I yield back.
    Mr. Perry. Thank you.
    The acting Chair now recognizes the chair of the 
subcommittee, Mr. Salmon, the gentleman from Arizona.
    Mr. Salmon. Thanks a lot. Appreciate you all coming today. 
This is such an important issue, not just to our country but to 
many of our allies in the region as well.
    I am going to ask you to speculate a little bit. Maybe it 
will be based on knowledge. Maybe it will be based on, I don't 
know, supposition. But what do you really think that at the end 
of the day China's motives are in doing this island building? 
What are their intentions for placing offensive armaments on 
these islets? Do you think that there is any serious concern 
about that? Or do you think that they are just trying to find 
natural resources that are valuable? What do you think that 
they are after?
    Dr. Cronin, do you want to start? Yes.
    Mr. Cronin. Chairman Salmon, thank you very much for your 
leadership and the excellent question. It is supposition. We 
don't know. We don't know. My speculation is that there is a 
great deal of opportunism going on right now. China is making 
it up as they go along.
    But this is driven by very long-standing claims and new-
found capabilities and opportunity. And we are giving them more 
opportunity than they ought to have as they rewrite the rules 
and create the facts on the ground. So the Nine-Dash Line, 
which isn't based on contemporary and international law, needs 
to be held to a point of law.
    What are they doing with arms on these artificial islands? 
They are partly intimidating the neighbors. They are partly 
declaring their seriousness of intent to these claims. They are 
staking out administrative control. They are trying to preempt 
international legal proceedings, in my view, in terms of the 
Philippine arbitration case next year that may come to 
fruition.
    They will have already built, as we have seen by Dr. Rapp-
Hooper's statistics, 2,000 acres added on to these roofs. And 
adding arms that Dr. Erickson talked about allows them to say, 
``Look, we are not only administering; we control these. These 
are de facto ours. We are not moving, and that is our intent.'' 
It is about regional order and about respect from their 
perspective. It is about claiming their role in the region of 
the world.
    But capabilities matter, intentions may change, so these 
intentions right now which may be, even if they are very 
defensive and even if they are very much driven by history and 
a fear of what the others have done, it is not fair that others 
started to build runways before they built a runway. I can 
understand the need for nationalism on the part of China. And 
we are trying to damp-down this nationalism, and I don't think 
fortifying these artificial islands with military arms is 
helping, which is why Dr. Rapp-Hooper is talking about trying 
to hold the line on new armaments going out there.
    But, unfortunately, if China does go down the road of 
building up its military, building up its coast guard, building 
these forward staged artificial islands as bases, that they 
will create new capabilities still in terms of the ability to 
project power beyond what we often refer to as the first island 
chain out to the second island chain.
    Now, they may have no serious intent in the political 
center right now on that. Those are certainly those in the PLA 
who think about it. But just because you are in the military 
and you think grand thoughts doesn't necessarily make it 
policy. So we don't know what their long-term intentions are, 
but we have to keep up with the day-to-day capabilities.
    We need to be more engaged. I take Dr. Swaine's point that 
engagement is a double-edged sword, and we have to be very 
careful about America's role, especially in Southeast Asia. I 
have argued elsewhere that we can't go faster than the 
Southeast Asians in terms of trying to facilitate peace.
    But at the same time, America has to be engaged every day 
in Southeast Asia. If I look out to the mid-century point of 
this century, Southeast Asia continues to grow. Indonesia goes 
prospectively to become the ninth largest economy, to the 
fourth largest economy in the world in this period of time. 
This is a very vital set of global waterways and economies that 
we are engaging. We need to be engaged for our own benefit and 
our future.
    Mr. Salmon. I think you have answered a large part of what 
my next question was going to be, but there have been some that 
have asserted that this really isn't America's interest, that 
it is just a bunch of meaningless rocks and sand, and it is 
nothing that we should be too concerned about. What would you 
say to that?
    Mr. Cronin. My opening line, sir, before you arrived was 
that this is not most about rocks, reefs, and resources. It is 
about rules and order. But for us, for the United States, it is 
about opportunity. It is about the opportunity to continue to 
spread freedom and commerce that are at the root of the 
American republic from our founding.
    We started to trade with Asia very early after our 
founding. We are going to have to stay engaged with the most 
dynamic economies of this world, which are in the Indo-Pacific. 
The latest IMF report shows what region is growing faster than 
any other? No surprise, Asia Pacific. What has grown faster 
since 1980? Asia Pacific. What is going to continue to grow 
faster than other regions, according to PricewaterhouseCoopers' 
latest forecast for 2050? Asia Pacific.
    So if the United States wants to get on the bandwagon with 
the future of this global economy and stay strong and 
prosperous and free, we must be more engaged, and that includes 
the economies and the people of Southeast Asia already three--
well, two-thirds of 1 billion people, but it is going to go up. 
Already $4 trillion in purchasing power parity of GDP. That is 
supposed to go way up between now and the next few decades.
    This is vital for us. That is why things like the Trans-
Pacific Partnership is a vital stepping stone to immediately 
second round talking to everybody, including to try to 
reconcile the different systems that are being built in global 
trading. Everything is changing. We have to be part of it, 
shape it, benefit from it, and bring our values and interests 
to this region.
    Mr. Salmon. Dr. Rapp-Hooper, you made a comment about TPP. 
And I am sorry if I am paraphrasing, but it happens to coincide 
with my deeply held beliefs that TPP is far more than a trade 
agreement.
    And what I see, a lot of our allies in the region believe--
and having visited with them and talked with them as well--is 
that they worry that with a big void of American leadership in 
the region different rules, whether they are rules of the road 
for maritime space, whether they are rules of the road for 
trade, military engagement, different rules of the road will be 
crafted, and they will be crafted by others than the United 
States, and maybe it won't end up being a very pretty picture 
at the end. Do you have any thoughts on that?
    Ms. Rapp-Hooper. Mr. Chairman, I think that 
characterization is very apt. As I mentioned, I think a number 
of our allies and partners, including those who are not 
necessarily negotiating partners in this round of TPP, feel 
very strongly that this is a metric of American engagement and 
interest in the region over the long haul and see it as 
symbolically very important as a national security issue, not 
just as a trade deal.
    I would also like to add some brief additions to Dr. 
Cronin's comments on the use of these islands, why China might 
be building up these islands. I think his assessment is 
absolutely correct. I would note that China, without these 
islands, did not before necessarily have the ability to engage 
in long-term, long-standing patrols in the southern parts of 
the South China Sea.
    It has a limited resupply and refueling capability. So 
having an air base on Fiery Cross Reef, possibly having a 
second air base on Subi Reef, which may be coming in the next 
several months, gives it the ability to sustain more of a 
presence in the South China Sea. And, again, that goes to Dr. 
Cronin's point about the ambiguous Nine-Dash Line claim and 
China's ability to hold on to that claim.
    These islands would theoretically be quite vulnerable in 
the case of an actual conflict, but they do potentially give 
China the ability to assert its claims in peacetime. And this 
gets to the essential question that you asked as to what 
America's interests are when it comes to the South China Sea.
    I agree with Dr. Swaine that the United States should 
absolutely focus its rhetoric on a few items, which include 
freedom of navigation and overflight. Absolutely essential. And 
the fact that disputes should not be resolved using coercion, 
and this is absolutely what is at stake with this island 
building and the possibility of greater Chinese assertiveness 
from the islands.
    Mr. Salmon. That having been said, what kind of a grade 
would you give our response or our leadership in the region on 
these kinds of issues? How are we doing? And any of you. Dr. 
Swaine, you wanted to make a comment. How do you think we are 
doing?
    Mr. Swaine. Well, it depends on what aspect of the policy 
and the objectives you are looking at, but I would say overall 
we are kind of at a B, B-minus. I think there has been very 
poor message discipline from the U.S. Government. There has 
been statements made by U.S. officials that I think have not 
been vetted, that have been unnecessary, in some ways 
inflammatory, have given the wrong impression about what U.S. 
policy is.
    I think there needs to be more discipline in doing that. I 
think there also needs to be greater clarity. As I said in my 
statement, there needs to be greater clarity in exactly what 
the United States is objecting to.
    ADIZs, on their own, are unobjectionable. The United has 
very large ADIZs. Japan has a very large ADIZ. The Chinese 
establishing an ADIZ, in and of itself, is not or should not be 
objectionable. It is about why they do it, when they do it, and 
how they use it. The same thing, as I just said, with land 
reclamation. The same thing with their presence in the South 
China Sea.
    It is not the fact that they are there. They are going to 
be there. The fact is, what are they going to do with their 
presence? And if the Chinese are not clear enough about the 
basis of their claims to these areas and these waters, which 
has implications for how they then act, then it is a very 
difficult thing to determine exactly what is the best policy.
    And as I said in my statement, the United States will be 
more inclined to have to hedge. And worst case, I think it is 
highly unlikely the Chinese are going to launch a military 
offensive to seize the entire Spratly Islands by force, 
ejecting all of the other claimants from their positions. By 
the way, the Vietnamese have the majority position in the South 
China Sea, in the Spratlys.
    I think it is highly unlikely that they would do that. I 
think that their objective is much more, A, they feel they 
don't have enough leverage in the area. They feel they have 
been catching up. And I think to some degree--I mean, that is 
the Chinese position, but to some degree I think it is true. 
And they have tried to catch up their position there.
    But, B, I think they see that their presence is a bigger 
presence, ultimately. They are going to have more capability, 
ultimately. And they want to establish a set of incentives, 
both positive and negative, and by ``positive'' I mean economic 
incentives and other positive things they can offer the other 
claimants, and ``negative'' in the sense of strong deterrent 
capability that will allow them to eventually make some kind of 
a deal.
    Again, not based on force, not based on military invasion, 
but they want to be able to have the predominant position in 
the area, so that they can have some kind of negotiated 
settlement that would be to their advantage. I would say that 
is their ideal. They hope that they could get that. Now, in the 
meantime, I think they can exist with the current occupation of 
the areas, but the question is, under what conditions going 
forward? And I think that is a lot of what the diplomacy 
consists of.
    Mr. Salmon. Thank you.
    Anybody else want to comment?
    Mr. Cronin. Yes. Mr. Chairman, thank you for the leadership 
and focus that you are bringing to this vital region. It is 
tremendously important. Allow me to share my brief personal 
assessment of what I think are some of the challenges we have 
run into in our policy over the last few years, some areas in 
which we haven't performed the way we need to to further our 
interests and to support the global system in this vital 
region.
    In the early years of the current administration, as made 
more difficult of course by the global financial crisis, I do 
think some unfortunate mistakes were made in terms of 
messaging, especially in optics, but words and optics matter. 
And we appear to be playing into Chinese rhetoric that made us 
look weaker and more distracted than would be effective in 
galvanizing allied and partnership support in the region, as 
well as maintaining a robust and stable deterrence relationship 
with China.
    Two particular things. Some people dismiss these as just 
words, but I think these were a genuine mistake. First of all, 
several U.S. policymakers invoked an academic concept that 
China's paramount leader Xi Jinping himself invoked, a so-
called Thucydides trap. This idea that based on previous 
history, if the rising power China and the existing power of 
the U.S. didn't make heroic efforts, do something very 
different, we couldn't avoid what would otherwise be an 
inescapable historical pattern of ruinous conflict.
    I think that way of thinking is terribly misinformed. If 
you compare 1914 and 2014 plus, I think you can only argue that 
we are susceptible to the same type of historic risks if you 
don't believe in the transformative power of nuclear weapons, 
international institutions, financial markets, transnational 
production chains. These are all part of the global system 
many--or positive parts of the global system that we now all 
benefit from and that we should seek to defend.
    So by appearing to agree with some of this rhetoric that 
was supported by China's own leader, we appear to be willing to 
yield to China's principle positions, and thereby contributed 
to emboldening Beijing to push back, to push harder, to probe, 
to see what China could achieve.
    If you look at really decades, but including in recent 
years with high fidelity on various incidents, there is a 
pattern of China's leaders acutely attuned to their perception 
of changes in--even small changes in relative power and policy, 
and probing anew whenever they think there might be a change 
there. So we made that worse by appearing to embrace that 
rhetoric.
    On a related note, we also made it worse by appearing to 
associate ourselves with what Chinese leaders initially rolled 
out as a new type of great power relations. This, too, 
appeared, although not fully defined, and we shouldn't have 
appeared to sign on to something that we didn't clearly have 
defined. But there is ample evidence to suggest that China's 
leadership, again, saw this as a way of saying that the U.S. 
had to yield to certain Chinese core interests in order to 
avoid a conflict in this new era.
    So words matter. We initially did not do a good job with 
that. We have done much better with that, but we are still not 
fully out of the words on that, and we are paying the price for 
that to some extent.
    Mr. Salmon. Thank you.
    Mr. Perry. Dr. Swaine?
    Mr. Salmon. I think we are out of time, but go----
    Mr. Perry. I actually have another question.
    Mr. Salmon. Okay. Well, go ahead. And if you want to 
comment, then please go ahead.
    Mr. Perry. Just to let the panelists know, I think we are 
expecting votes anytime. So as long as me and the chairman want 
to go back and forth and you are willing to stay here, we could 
run it to the end.
    Moving to a little bit of a different topic, and I don't 
know your familiarity, but China has announced its China Sea 
air defense zone in 2013. Is the U.S. prepared for a scenario 
in which China announces a second ADIZ over parts of the South 
China Sea? And what would the likely U.S. response to such an 
action? I would start with Dr. Erickson, if you don't mind.
    Mr. Erickson. Thank you very much for that extremely 
pertinent question, Mr. Perry. I think there is a very good 
chance that within the next 2 years that will no longer be an 
abstract question. Fortunately, I think the U.S. Government is 
very much on track to address this issue, because the solution 
in my view is to continue to pursue freedom of navigation and 
operate everywhere that is necessary for us in accordance with 
established, widely recognized principles of international law.
    I think we have all seen the footage from the P-8 Poseidon 
aircraft that embarked--wisely embarked--a CNN reporter. We are 
already doing what we need to do in the event of China's 
declaration of an ADIZ over some parts of the South China Sea, 
namely treat it for what it is. It is in no way territorial 
airspace, and it is only relevant in terms of the coastal state 
issuing instructions to aircraft, if there is evidence that 
those aircraft intend to enter China's actual territorial 
airspace.
    I agree with Dr. Swaine earlier. There is no rule against 
China establishing an ADIZ, and perhaps some of the U.S. 
messaging on that was a little bit garbled. I think we could do 
better. It was the way in which they rolled out the East China 
Sea ADIZ: China's military used the phrase, ``Defensive 
emergency measures'' would be used if aircraft entering this 
zone declined to comply with Chinese demands.
    Well, that is simply against the basic principles of 
international law, and I would note that China has never 
conclusively taken back, walked back, those very inflammatory 
and destabilizing words. So if China--if and when China--
announces an ADIZ over the South China Sea, the U.S., in my 
view, is going to be prepared to continue what we have already 
done--freedom of navigation.
    And I don't believe that China is going to challenge that 
in a disruptive way, and I think we can all continue to go 
about business as usual. But that is what it is going to take.
    Mr. Perry. Oh, boy. Okay. Dr. Rapp-Hooper?
    Ms. Rapp-Hooper. Thank you so much for your question. I 
will just tack on to Dr. Erickson's remarks and note that I 
also do agree that the administration and the U.S. Government, 
by virtue of these freedom of navigation exercises, is doing 
its part toward objecting to the most objectionable parts of a 
potential ADIZ in the South China Sea.
    We have also seen some recent statements by friends and 
allies in the region who suggested that they, too, would object 
to an air defense identification zone if China should declare 
one and attempt to enforce it in ways that are inimical to 
international law. That includes certainly Japan, it includes 
Australia.
    So one other thing that the United States could do in 
advance of China's declaration of a South China Sea air defense 
identification zone is to prepare a multilateral groundwork to 
object to exercise if China is to try to implement an ADIZ in a 
way that runs counter to international law. That is, not to 
have the United States being the only country that flies 
through the airspace or transits the waters, but show that this 
is a problem for the region and for the rules-based system as a 
whole.
    Mr. Swaine. Just a couple of comments on this. I think the 
Chinese could very well announce an ADIZ for the South China 
Sea at some point. Their policy right now is that they have no 
intention of doing this at the time. They haven't committed 
that they will never do it. But they have never stated that an 
ADIZ is anything approaching territorial airspace. In fact, 
their objection to Japanese sorties that were sent up against 
Chinese aircraft in the ADIZ was that Japan treated it like 
territorial airspace.
    The Chinese position on this I think would have to be 
measured by what exactly they are including in an ADIZ, because 
an ADIZ should have a relationship to a territorial airspace or 
territory. It is a buffer zone before you enter into that area.
    Now, if the Chinese establish an ADIZ across the entire 
South China Sea, what is the territorial area that requires 
them to establish that ADIZ of that size? If they say it is 
everything in the Nine-Dash Line, then they are essentially 
stating that the Nine-Dish Line is territorial airspace, 
territorial waters. And if they state that, they will be in 
complete violation of international law, and they will be 
taking an action which I think will be unanimously opposed, and 
they would have to take the consequences of that happening. 
Therefore, I think it is unlikely that they will do that, 
because they are not going to make that statement about the 
Nine-Dash Line area.
    Now, they could make an ADIZ, but it all depends upon the 
conditions that they do it under. If they notify people in 
advance, if they state clearly exactly what the limits of it 
are and if that complies with law, and if they state clearly 
what the process is by which you can--by which they are going 
to enforce it, as they could attempt to do, then you can deal 
with that problem.
    If they do it without informing anybody, they include the 
South China Sea as the whole, they make the implication that 
they have declared it as territorial airspace, then you have 
got a real problem. But it is not just the simple fact that 
they may declare an ADIZ. It really depends on what it is.
    Mr. Perry. Have any other countries continued to--I imagine 
all of the other countries in the neighborhood have continued 
to fly in the current ADIZ with impunity, so to speak? Or is it 
just the United States that continues to----
    Mr. Swaine. So you mean the East China Sea ADIZ?
    Mr. Perry. Yes.
    Mr. Swaine. Well, actually, airliners--the Chinese asked 
for notification for any sort of airliners it would cross 
through the air defense identification zone, even if they 
weren't going to enter into Chinese airspace. Airlines, 
including American airlines, do this.
    Mr. Perry. But is that kind of validating, like the quiet 
title to the airspace over time, by complying with what is----
    Mr. Swaine. Well, just one point on this. The Chinese are 
not unique in requiring or asking that foreign countries 
declare or notify them even when they are just transiting an 
ADIZ. They are not unique in that regard.
    The United States believes an ADIZ should only be 
functioning if you are going to go and enter the airspace. Some 
other countries, including Japan, vis-a-vis Taiwan, require 
Taiwanese aircraft to notify the Japanese government when they 
are going through their Japanese ADIZ. So the Chinese are not 
unique in----
    Mr. Perry. But is the Japan situation unique, and China 
using that opportunity to say, ``Well, we want to do the same 
thing,'' without having any really relevant claim?
    Mr. Swaine. Well, what the Chinese did here--and I think it 
did relate to Japan--is they said Japan has an ADIZ. And have 
you ever seen a map of Japan with its ADIZ? It is very big. It 
extends out to about 130 kilometers from the Chinese coast. And 
the Chinese said, ``Okay. We have this dispute with the 
Japanese. We are trying to assert our administrative authority 
around the Senkaku Islands. We are going to have an ADIZ.''
    The Chinese claimed that it didn't have to do with Japan, 
but that's baloney. It had to do with Japan.
    Mr. Perry. I will turn to Chairman Salmon.
    Mr. Salmon. Yes. It looks like we have been buzzed for a 
vote, but I just have one quick question. There are no quick 
questions around here, right? Xi Jinping is going to be here 
after the August recess. September. September he is going to be 
here.
    This is a really golden opportunity for us to raise some of 
these issues in a constructive way, I believe, with him. I know 
that obviously the President will be meeting with him, but 
several Members of Congress will have access to him as well. If 
you were in our spot, how would you approach it?
    Mr. Cronin. Mr. Chairman, thank you. It is a very important 
opportunity. Obviously, President Xi and President Obama both 
want a successful summit meeting. Both want to be seen as 
successful stewards of major power relations, and they have 
more on the agenda later in the year, especially at Paris over 
climate change where that is expected to be an area of 
cooperation between the two capitals and the two 
administrations.
    We have a chance, therefore, to raise, in advance of the 
summit and at the summit, a serious discussion about the South 
China Sea. We need to get more specific about what we object 
to, what we are trying to prevent, including an ADIZ, about 
what our interests are and what our purposes are, and why other 
countries throughout the region have a right to be involved in 
upholding law, international law, the rule of law, and access 
to the global commons.
    We ought to be coordinating with other countries in the 
region in advance as well to make sure that we don't, 
unfortunately, create the perception that we are just 
negotiating with China on what some are advocating should be a 
sphere of influence effectively for China. Just the opposite; 
we are trying to tamp down the tensions, so that all can 
continue to benefit.
    We also need to be investing, though, in our long term. 
This is not going away this fall. This is going to be here for 
the rest of the century. We need to build up our regional 
expertise, our history, our geography, our cultural air, sea, 
law, expertise, through education, in our government. And this 
committee can help do that, sir, with its leadership.
    Thank you, sir.
    Mr. Erickson. Thank you, Mr. Chairman. It is a very 
important opportunity. Our engagement with China, indeed, is 
important, and in fact is based on many mutual interests. But 
we need to stand up for our own interests in this process. Part 
of that is getting the rhetoric right, the wording right.
    And following what I call the Hippocratic Oath of 
International Relations: First, do no harm. In our messaging, 
don't use the term ``Thucydides trap.'' Don't use the term 
``new type of great power relations'' or ``new type of major 
country relations'' or ``new model of relations,'' et cetera, 
et cetera, et cetera. Instead, China can say what it wants. We 
encourage freedom of speech. We want to promote this. But then 
we should advance our own formulations, our own positive ideas.
    Under Bob Zoellick, the ``responsible stakeholder'' concept 
was one such very positive aspect. And, frankly, I think the 
current administration early on missed an opportunity to 
continue to put out its own formulation, and instead ``new type 
great power relations'' came in to fill the void. So the 
substance behind the words matters, but so, too, do the words.
    Thank you.
    Ms. Rapp-Hooper. Mr. Chairman, I think that in this very 
important summit the United States should take the opportunity 
to communicate not only its interests in broad abstractions 
but, as my colleagues have mentioned, what those actions are 
that China may take that may be inimical to those interests.
    So, again, we often have a tendency to speak in terms such 
as freedom of navigation, freedom of overflight, but it is 
important to highlight that the reason that this P-8 video that 
was released by CNN was so worrisome was because it suggested 
that freedom of navigation and freedom of overflight could 
already be in jeopardy. That is, because a U.S. aircraft was 
warned away from an artificial island, told that it was 
approaching a military zone.
    So being specific about the types of warnings, the types of 
actions that would cause the greatest concern in the United 
States is an absolute must. Additionally, I think this is a 
really important opportunity to lay down some criteria for what 
constitutes militarization of an island versus what constitutes 
civilian use of an island.
    And this is not just applicable to China, but, rather, to 
all of the claimants who may have facilities and outposts in 
the Spratly Islands. This is because if we are ambiguous, if we 
don't clarify this criteria, there is the possibility that 
China will continue to advance its militarization of the 
islands very quickly, or that it may install dual use equipment 
that may be destabilizing, that may take other claimants by 
surprise, and that this may proceed in fits and starts in ways 
that can be deeply destabilizing to things such as Code of 
Conduct negotiations.
    So taking this opportunity to clarify intentions on both 
sides, to specify intentions on both sides, I think is 
absolutely the order of the day.
    Thank you very much.
    Mr. Swaine. I agree with my colleagues about the importance 
of this issue, and I think it should definitely be raised 
during the Xi Jinping visit to the United States. It is really 
that significant an issue. This could become a serious source 
of a deterioration in this relationship over these rocks and 
islands in the South China Sea, of a relationship that is 
gigantic, where these two powers are really joined at the hip 
in many ways.
    So the two countries have to work to avoid that. I don't 
think it is going to happen if you have a staged discussion of 
this issue between two sides with generic talking points. You 
will just get the same exchange of information that we have had 
before.
    I think Obama needs to sit down with Xi Jinping, with a 
small number of staff, and talk seriously about this issue, 
talk about what U.S. concerns are, talk about what the United 
States would see as unacceptable in certain ways, and then talk 
about ways in which the two sides can reassure each other that 
these things are not going to happen. And the Chinese can 
express their views as well.
    When Kerry was in Beijing not long ago, Xi Jinping 
apparently told him, ``We have no desire or intention to do 
things that will provoke or upset the United States.'' Well, 
they should follow up on that and take him up on this and try 
to engage him directly on this.
    One last point. I really disagree fundamentally with my 
friend Andrew's view about the new type of great power 
relations. I don't think there is any problem with that 
concept. I think it in fact captures what China and the United 
States should be doing. We don't have to accept the Chinese 
definition of what that means. Just because the Chinese raised 
it doesn't mean for some reason we shouldn't be supporting it.
    We want to see a region evolve here where in fact there is 
a clear avoidance of the kind of power rivalries that you will 
get from a rising power that is in some ways a non-status quo 
power in the Western Pacific, and a dominant power, the United 
States.
    In my view, the level of American predominance that we have 
enjoyed for 70 years in the Western Pacific is and will erode. 
We will lose our position, relatively speaking, to the Chinese. 
Yes, we have to keep up deterrence capabilities. Yes, we have 
to defend our most vital interests and will. But at the same 
time, our image and our capability as the predominant maritime 
power in the Western Pacific, in my view, is going to be gone.
    The Chinese will have capabilities that will call into 
question that surety of that American position. The question 
is: What do we do about that? And, to my mind, the strategy 
should be thinking about how you can transition to a stable 
balance of power in the Western Pacific.
    Thank you.
    Mr. Perry. The acting chair thanks the panelists. Thank you 
very much for the great discussion. It was kind of great not to 
have so many people here, so Matt and I could ask all the 
questions. But we appreciate your interest and your 
involvement, and we look forward to working with you in the 
future as well as the other members. And at this time, this 
hearing is adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Matt Salmon, a 
  Representative in Congress from the State of Arizona, and chairman, 
                  Subcommittee on Asia and the Pacific

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
